APPENDIX

)

A-l
USCA11 Case: 20-12732

Date Filed: 01/21/2021

Page: 1 of 10

[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-12732
Non-Argument Calendar
D C. Docket No. 8:15-cv-02787-VMC-AEP
ANGELA W. DEBOSE,
Plaintiff - Appellant,
versus
USF BOARD OF TRUSTEES, et al.,
Defendants,
UNIVERSITY OF SOUTH FLORIDA BOARD OF TRUSTEES,
ELLUCIAN COMPANY, L.P.,
Defendants - Appellees.

Appeal from the United States District Court
for the Middle District of Florida
(January 21, 2021)
Before JILL PRYOR, NEWSOM, and LUCK, Circuit Judges.
PER CURIAM:

USCA11 Case: 20-12732

Date Filed: 01/21/2021

Page: 2 of 10

Angela DeBose, proceeding pro se, appeals the denial of her post-trial Fed.
R. Civ. P. 60(d) motion for fraud on the court, the denial of her request for an
evidentiary hearing, and the denial of her motion to reassign or recuse the
magistrate judge in an employment-discrimination lawsuit, No. 15-cv-02787
{DeBose I). DeBose also challenges the dismissal of her “Independent Action for
Relief from Judgment to Remedy Fraud on the Court,” which she filed in No. 19cv-01132 {DeBose IT). DeBose presents five issues on appeal. First, she argues
that the district court erred in DeBose II by dismissing her claim without
considering its merits. Second, she argues that the district court abused its
discretion by denying her Rule 60(d) motion because evidence in the record
demonstrates the existence of fraud. Third, DeBose argues that the district court
abused its discretion by failing to hold an evidentiary hearing in conjunction with
her Rule 60(d) motion for fraud on the court. Fourth, DeBose argues that the
magistrate judge abused his discretion when he delayed denying her motion to
reassign or recuse him and then denied the motion as moot. Finally, DeBose
moves for sanctions. For the reasons explained below, we affirm, and we deny
DeBose’s motion for sanctions.

2

3
USCA11 Case: 20-12732

Date Filed: 01/21/2021

Page: 3 of 10

I
DeBose’s litigation has a long and eventful history, the relevant portions of
which we discuss below. DeBose filed a lawsuit in DeBose I against her former
employer, the University of South Florida Board of Trustees (USFBOT) and
Ellucian Company, for unlawful discrimination, retaliation, breach of contract,
tortious interference with a business relationship, and civil conspiracy. DeBose
later filed a motion for sanctions against USFBOT for destroying discoverable
documents, including her employment files and contracts. The magistrate judge
denied the motion, holding that DeBose had not established bad faith on the part of
USFBOT. DeBose filed another motion for sanctions, which the magistrate judge
again denied, citing DeBose’s failure to provide new or additional evidence that
USFBOT acted in bad faith. Ellucian and USFBOT moved for summary judgment
on several of DeBose’s claims, which the district court granted in part and denied
in part.
DeBose then filed a “Motion for Relief from Judgment for Fraud” for the
concealment of her 2015 employment contract. The district court denied the
motion. DeBose filed a third motion for sanctions, which the district court denied
as a “thinly-veiled” attempt to challenge the district court’s summary-judgment
order. The case proceeded to trial, where the jury returned a verdict in favor of
DeBose on her retaliation claim. DeBose filed a fourth motion for sanctions
3

11 cu
USCA11 Case: 20-12732

Date Filed: 01/21/2021

Page: 4 of 10

against USFBOT. The district court granted USFBOT’s motion for judgment as a
matter of law, overturned the jury’s verdict on DeBose’s retaliation claim, and
denied DeBose’s motion for sanctions.
Debose filed an “Independent Action for Relief from Judgment to Remedy
Fraud on the Court” in DeBose II, alleging that USFBOT and others had engaged
in a scheme to commit perjury and fraud. The district court dismissed Debose II,
holding that DeBose was seeking relief pursuant to Rule 60(b) based on fraud on
the court and that the “crux” of DeBose II was that the judgment in DeBose I had
been tainted by fraud. The district court concluded that DeBose could file a
motion in DeBose I pursuant to Rule 60(b).
DeBose then filed an “Independent Action for Relief from Judgment to
Remedy Fraud on the Court” under Rule 60(d)(1) and Rule 60(d)(3) in DeBose I.
DeBose also filed a “Motion for Reassignment of a New Magistrate or
Alternatively Recusal of Judge Anthony E. Porcelli” and a “Motion for Evidentiary
Hearing with Witness Testimony.” Because the district court denied the Rule
60(d) motion and the motion for an evidentiary hearing, the magistrate judge
denied DeBose’s motion to reassign or recuse as moot. DeBose now appeals.
II
The first issue on appeal is whether this Court has jurisdiction to consider
the district court’s order denying DeBose’s “Independent Action for Relief from
4

5^
USCA11 Case: 20-12732

Date Filed: 01/21/2021

Page: 5 of 10

Judgment to Remedy Fraud on the Court” in DeBose II. This Court must examine
jurisdiction sua sponte, Adams v. Monumental Gen. Cas. Co., 541 F.3d 1276, 1277
(11th Cir. 2008), and it reviews jurisdictional issues de novo. Id.
Under 28 U.S.C.§ 1291, appellate courts “shall have jurisdiction of appeals
from all final decisions of the district courts of the United States[.]” However, “a
timely and properly filed notice of appeal is a mandatory prerequisite to appellate
jurisdiction.” Holloman v. Mail-Well Corp., 443 F.3d 832, 844 (11th Cir. 2006).
The Supreme Court, which has identified the timely filing of a notice of appeal as a
jurisdictional requirement, has made clear that courts have “no authority to create
equitable exceptions to jurisdictional requirements.” Bowles v. Russell, 551 U.S.
205, 214 (2007). Federal Rule of Appellate Procedure 3(c)(1) sets out three
requirements for a notice of appeal: it must (1) “specify the party or parties taking
the appeal by naming each one in the caption or body of the notice”; (2) “designate
the judgment, order, or part thereof being appealed”; and (3) “name the court to
which the appeal is taken.” “Although we generally construe a notice of appeal
liberally, we will not expand it to include judgments and orders not specified
unless the overriding intent to appeal these orders is readily apparent on the face of
the notice.” Osterneck v. E.T. BarwickIndus., Inc., 825 F.2d 1521, 1528 (11th Cir.
1987), affdsub nom. Osterneck v. Ernst & Whinney, 489 U.S. 169 (1989).

5

(0Cl
USCA11 Case: 20-12732

Date Filed: 01/21/2021

Page: 6 of 10

Here, DeBose never filed a notice of appeal in DeBose II. DeBose did file a
notice of appeal in DeBose I, but that notice does not specify her intent to appeal
the order in DeBose II, nor is such intent “readily apparent on the face of the
notice.” Osterneck, 825 F.2d at 1528. Accordingly, this Court lacks jurisdiction to
review the district court’s order dismissing DeBose’s “Independent Action for
Relief from Judgment to Remedy Fraud on the Court” in DeBose II.
Ill
Second, we consider whether the district court abused its discretion in
denying DeBose’s Rule 60(d) motion in DeBose I. We review the denial of a Rule
60(b)(3) motion for an abuse of discretion. Cox Nuclear Pharm., Inc. v. CTI, Inc.,
478 F.3d 1303, 1314 (11th Cir. 2007). We thus apply this same standard to our
review of the denial of DeBose’ s Rule 60(d)(3) motion, which, like Rule 60(b)(3),
concerns “fraud on the court.”
A movant who seeks relief from the judgment based on fraud on the court
must establish fraud by clear and convincing evidence. Id. at 1314. Fraud on the
court embraces “only that species of fraud which does or attempts to, defile the
court itself, or is a fraud perpetrated by officers of the court so that the judicial
machinery cannot perform in the usual manner its impartial task of adjudging
cases.” Travelers Indem. Co. v. Gore, 761 F.2d 1549, 1551 (11th Cir. 1985)
(holding that perjury does not constitute fraud on the court under Rule 60(d)(3))
6

USCA11 Case: 20-12732

Date Filed: 01/21/2021

Page: 7 of 10

(quotation marks omitted). It is thus only egregious misconduct—such as an
“unconscionable plan or scheme” to influence the court’s decision—that
constitutes fraud on the court. See Rozier v. Ford Motor Co., 573 F.2d 1332, 1338
(5th Cir. 1978). We have made clear that a plaintiff “cannot use an independent
action as a vehicle for the relitigation of issues.” Travelers, 761 F.2d at 1552.
Here, DeBose has heavily litigated USFBOT’s alleged fraud, shredding of
documents, and presenting false affidavits and perjurious testimony. DeBose’s
Rule 60(d)(3) motion concerns these same issues. DeBose would not be entitled to
relief under Rule 60(d)(3) on this ground alone. See Travelers, 761 F.2d at 1552.
But even if DeBose’s Rule 60(d)(3) motion did not relitigate old issues, it fails for
an independent reason—DeBose does not establish anything resembling an
“unconscionable plan or scheme” by clear and convincing evidence. Although
DeBose claims that she has new evidence of fraud on the court, this evidence either
duplicates existing evidence or could have been previously submitted to the district
court. The district court therefore did not abuse its discretion in denying DeBose’s
Rule 60(d) motion for fraud on the court.
IV
We must also determine whether the district court erred by denying DeBose’s
Rule 60(d) motion without an evidentiary hearing in DeBose I. We review a
7

USCA11 Case: 20-12732

Date Filed: 01/21/2021

Page: 8 of 10

district court’s refusal to hold an evidentiary hearing for abuse of discretion. Cliff
v. Payco Gen. Am. Credits, Inc., 363 F.3d 1113, 1121 (11th Cir. 2004). We have
held that where “[a]n evidentiary hearing would have served no useful purpose in
aid of the court’s analysis,” a court does not abuse its discretion by failing to hold
one. Cano v. Baker, 435 F.3d 133, 1342-43 (11th Cir. 2006). Here, the issues that
DeBose presented had been repeatedly litigated in the district court, and DeBose
presented no new substantive evidence. Accordingly, an evidentiary hearing
would have served no useful purpose and the district court did not abuse its
discretion by failing to hold one.
V

We next determine whether the magistrate judge erred by denying DeBose’s
motion to reassign or recuse as moot. We review the denial of a reassignment or
recusal motion for abuse of discretion. Loranger v. Stierheim, 10 F.3d 776, 779
(11th Cir. 1994). A federal court may not decide moot questions. See St. Pierre v.
United States, 319 U.S. 41, 42 (1943). An action is generally considered moot
when any determination of the matter will have no practical effect on the parties.
See United States Parole Comm ’n v. Geraughty, 445 U.S. 388, 396 (1980). Here,
DeBose filed a motion to reassign or recuse the magistrate judge prior to the
rulings on her Rule 60(d) motion and her motion for an evidentiary hearing. Once
rulings had been made on the Rule 60(d) motion and the motion for evidentiary
8

fy(L
USCA11 Case: 20-12732

Date Filed: 01/21/2021

Page: 9 of 10

hearing by the district court judge—and not, notably, by the magistrate judge—any
ruling on the motion to reassign or recuse would have no practical effect on the
parties. The magistrate judge thus did not abuse his discretion by denying the
motion as moot. Accordingly, we affirm.
VI
Finally, we address DeBose’s motion for sanctions in this appeal. Rule 38
provides that “[i]f a court of appeals determines that an appeal is frivolous, it may,
after a separately filed motion or notice from the court and reasonable opportunity
to respond, award just damages and single or double costs to the appellee.” Fed. R.
App. P. 38. For purposes of Rule 38 sanctions, a claim is frivolous if it is “utterly
devoid of merit.” Bonfiglio v. Nugent, 986 F.2d 1391, 1393 (11th Cir. 1993). By
its plain terms, however, Rule 38 applies against appellants and in favor of
appellees. Accordingly, we deny DeBose’s motion for sanctions.
VII
To sum up, we conclude that: (1) this Court lacks jurisdiction to review the
district court’s order dismissing DeBose’s “Independent Action for Relief from
Judgment to Remedy Fraud on the Court” in DeBose II; (2) the district court did
not abuse its discretion in denying DeBose’s Rule 60(d) motion; (3) the district
court did not abuse its discretion by denying DeBose’s Rule 60(d) motion without
an evidentiary hearing; (4) the magistrate judge did not abuse his discretion by
9

100USCA11 Case: 20-12732

Date Filed: 01/21/2021

Page: 10 of 10

denying DeBose’s motion to reassign or recuse as moot; and (5) DeBose’s motion
for sanctions is denied.
AFFIRMED and DENIED.

10

A-3
USCA11 Case: 20-12732

IS*.

Date Filed: 03/02/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-12732-DD
ANGELA W. DEBOSE,
Plaintiff - Appellant,
versus
USF BOARD OF TRUSTEES, et al.,
Defendants,
UNIVERSITY OF SOUTH FLORIDA BOARD OF TRUSTEES,
ELLUCIAN COMPANY, L.P.,
Defendants - Appellees.
Appeal from the United States District Court
for the Middle District of Florida
ON PETITIONS FOR REHEARING AND PETITIONfSl FOR REHEARING EN BANC
Before JILL PRYOR, NEWSOM, and LUCK, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)

ORD-46

lb(L
THE UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
ANGELA DEBOSE,

)
)
)
)

Plaintiff,

) CASE NO. 8:15-cv-02787-VMC-AEP

v.

)
)
)
)
)
)

UNIVERSITY OF SOUTH FLORIDA
BOARD OF TRUSTEES, UNIVERSITY
OF SOUTH FLORIDA,
Defendant.

NOTICE OF APPEAL
Plaintiff Angela DeBose hereby gives Notice of Appeal to the U.S. Court of Appeals for
the Eleventh Circuit from the June 23,2020 Order [607] (Exhibit A), denying Plaintiff’s
motion for relief, which she brought as an “Independent Action” [588] in equity, as provided for
by Federal Rule of Civil Procedure 60(d)(1), to remedy the errors in “DeBose F and also
denying Plaintiff’s May 12,2020 Motion for an Evidentiary Hearing [600].
On May 10, 2019, Ms. DeBose filed her complaint and independent action, with new
evidence of the Defendant’s and its representatives’ fraud or misconduct. The case style, Angela
DeBose v. University ofSouth Florida Board of Trustees and Greenberg Traurig, P.A.1, was
filed under Case No. 8:19-cv-01132-JSM-AEP. The district court in that action dismissed Ms.
DeBose’s Independent Action without prejudice, insisting that Ms. DeBose file with the district
court in the instant case, DeBose I, before Judge Elizabeth A. Kovachevich. After multiple times
challenging the district court in Case No. 8:19-cv-01132-JSM-AEP to allow her to proceed, Ms.

1 In DeBose I, the district court failed to issue the summons to serve process on Greenberg Traurig, P.A. The district
court failed to address in its orders why the summons failed to issue.
1

DeBose filed her Rule 60(d) Independent Action in DeBose I, with Judge Virginia M. Covington
presiding. Rule 60 of the Federal Rules of Civil Procedure provides for “Relief from a Judgment
or Order” by motion (Part (b)) or by independent action (Part (d)). Part (d) is commonly referred
to as Rule 60's “savings clause” and states: “This rule does not limit a court's power to entertain
an independent action to relieve a party from a judgment, order, or proceeding.” Fed.R.Civ.P.
60(d)(1). Such an action has no time limitation. Additionally, Ms. DeBose also appeals the
June 24,2020 Order [608] (Exhibit B), denying as “moot” her May 25, 2020 motion to
reassign a new magistrate to replace Magistrate Judge Anthony E. Porcelli, pursuant to 28 U.S.
Code § 455 and Marshall v. Jerrico Inc., 446 US 238, 242, 100 S.Ct. 1610, 64 L. Ed. 2d 182
(1980). On June 26,2020, Plaintiff moved the district court to reconsider its orders [607, 608],
The district court denied Plaintiff’s motion for reconsideration on several erroneous grounds,
including an inaccurate finding that Plaintiff filed the independent action but only after the
Eleventh Circuit panel affirmed the district court’s decision to overturn the jury verdict in favor
of Ms. DeBose and grant Defendant USFBOT’s motion for judgment as a matter of law (JMOL).
Therefore, finally, Ms. DeBose also appeals the July 10,2020 Order [611] (Exhibit C),
denying her motion for reconsideration.
Submitted July 21,2020

Respectfully submitted,
Is/ Angela DeBose
Angela DeBose

2

1C
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on this 21st day of July, 2020, the above and foregoing was
filed electronically, which will email the following: Richard C. McCrea, Jr., Greenberg Traurig,
P.A., 101 East Kennedy Boulevard, Suite 1900, Tampa, Florida 33602-5148; email:
(mccrear@gtlaw.com); and other counsel of record.

/s/ Angela DeBose
Angela DeBose, Plaintiff
1107 W. Kirby Street
Tampa, Florida 33604
Telephone: (813) 230-3023
Email: awdebose@aol.com

3

Case 8:15-cv-02787-VMC-AEP Document 607 Filed 06/23/20 Page 1 of 11 PagelD 11375

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
ANGELA W. DEBOSE,
Plaintiff,
Case No: 8:15-cv-2787-T-33AEP

v.
UNIVERSITY OF SOUTH FLORIDA
BOARD OF TRUSTEES, et al.,
Defendants.
/

ORDER
This cause comes before the Court pursuant to pro se
Plaintiff Angela DeBose's Motion for Independent Action for
Relief from Judgment to Remedy Fraud on the Court

(Doc.

588),

for

filed

on

May

12,

2020,

DeBose's

Motion

#
an

Evidentiary Hearing (Doc. # 600), filed on June 6, 2020, and
DeBose's Motion for Extension of Time to File a Second Amended
Appeal

(Doc.

#

603),

filed on June

9,

2020.

University of South Florida Board of Trustees
responded to all three motions.

Defendant
(jJSFBOT) has

(Doc. # 599, 604, 605) . For

the reasons detailed herein, the Motions are denied.

1

101

Case 8:15-cv-02787-VMC-AEP Document 607 Filed 06/23/20 Page 2 of 11 PagelD 11376

I.

Background
This case has a long and complex history, one that the

parties are familiar with. For now, it is sufficient to say
that, following her termination from USF, DeBose brought this
lawsuit against both USFBOT and Ellucian Company,

L.P.,

a

software developer whose products are used for academic and
administrative recordkeeping. (Doc. # 45). This Court granted
summary judgment to Defendants on several counts, including
all counts against Ellucian. (Doc. # 210) . After a jury found
for DeBose on the remaining counts, the Court granted judgment
as a matter of law to USFBOT and denied DeBose's post-trial
motions.

(Doc.

## 471,

548,

549) .

DeBose appealed to the

Eleventh Circuit and, on April 28, 2020, the Eleventh Circuit
affirmed in full.
Shortly
decision,

(Doc. # 587) .

after

the

Eleventh

Circuit

handed

down

its

DeBose filed the instant Motion for Independent

Action, which argued that, due to various alleged frauds that
USFBOT and related entities had perpetrated on the Court, the
Court should allow DeBose to pursue an independent action for
relief from judgment and/or should set aside the judgment,
pursuant to Federal Rule of Civil Procedure 60(d). Although
DeBose raises multiple allegations of fraud in her Motion,
the thrust of her argument is that USFBOT engaged in wrongful

2

2 la-

Case 8:15-cv-02787-VMC-AEP Document 607 Filed 06/23/20 Page 3 of 11 PagelD 11377

and nefarious conduct in order to impede discovery and the
administration
other

of justice

things,

including

wrongly

various

in this
destroying

employment

case,

including,

among

her

personnel

file,

presenting

false

contracts,

testimony to the Court, and convincing the Court to wrongfully
exclude certain witnesses and evidence proffered by DeBose.
(Doc. # 588).
In its response,
procedural

history

USFBOT outlines in great detail the

of

this

case,

including

the

numerous

motions and other filings submitted by DeBose in which she
alleged

that

USFBOT

had

destroyed

or

withheld

evidence,

persuaded witnesses to lie under oath and otherwise suborned
perjury.
as

the

DeBose's

(Doc. # 599 at 3-9). As the response explains, and
record bears

out,

this

arguments

because

Court

the

repeatedly

allegations

rejected

were

never

accompanied by competent evidence or were "thinly veiled"
attempts to attack substantive orders. See, e.g.,
at 9)

(Doc. # 548

("The Court and the assigned Magistrate Judge have

exhaustively addressed on multiple occasions the issues and
arguments raised by the instant Motion for Sanctions. Since
the

outset

of

this

litigation,

DeBose

has

failed

to

substantiate her allegations against the Board related to her
'employment contracts,' whether it be in the form of their

3

Case 8:15-cv-02787-VMC-AEP Document 607 Filed 06/23/20 Page 4 of 11 PagelD 11378

concealment, destructions, or breach.");
("In

essence,

Plaintiff,

based

upon

(Doc. # 144 at 7-8)
unsupported

hearsay

statements and conjecture, requests that the Court conclude
that numerous individuals . . . all agreed to lie under oath
and agreed to execute elaborate steps to shred information
directly relevant to Plaintiff's claims in this case.

The

Court is unpersuaded by Plaintiff's renewed Motion. Rather,
yet

again,

Plaintiff

has

simply

failed

to

provide

any

competent evidence to demonstrate that Defendant acted with
bad faith in the shredding of her departmental personnel
file.").
USFBOT therefore argues that DeBose's instant Motion for
Independent Action is an improper effort to relitigate issues
already decided by the Court and, in any event, does not meet
the "heightened Rule 60(d)

fraud standard."

(Doc. # 599 at

13-17) .
DeBose also seeks an evidentiary hearing pertaining to
her request for an independent action and has requested that
the Court enlarge her time to file an amended notice of appeal
in appellate case number 18-13545. (Doc. ## 600, 603). USFBOT
has responded in opposition to these Motions as well (Doc. ##
604, 605), and the Motions are all ripe for review.

4

Gr­
ease 8:15-cv-02787-VMC-AEP Document 607 Filed 06/23/20 Page 5 of 11 PagelD 11379

II.

Legal Standard
Federal Rule of Civil Procedure 60(d) authorizes a Court

to (1)

"entertain an independent action to relieve a party

from a judgment, order, or proceeding," or (2) "set aside a
judgment for fraud on the court." Fed. R. Civ. P. 60(d)(1),
(3) .
Because an independent action under Rule 60(d)

is an

equitable one, the proponent must show a meritorious claim or
defense and that the judgment should not, in equity and good
conscious,

be enforced.

Travelers Indem.

F.2d 1549, 1151 (11th Cir. 1985)
v. Att'y Gen,

for State of Fla.,

Co. v.

Gore,

761

(citation omitted); Jeffus
No.

6:10-cv-1174-Orl-28,

2011 WL 2669147, at *2 (M.D. Fla. July 6, 2011). "The Supreme
Court has made clear that such independent actions must, if
Rule

60(b)

is to be interpreted as a coherent whole,

reserved for those cases of injustices which,
instances,
departure

are
from

deemed
rigid

sufficiently
adherence

to

gross
the

to

be

in certain
demand

doctrine

of

a
res

judicata." Aldana v. Del Monte Fresh Produce N.A., Inc., 741
F. 3d 1349,

1359

(11th Cir. 2014)

Beggerly,

524 U.S. 38,

citation

omitted).

46

Indeed,

(1998))

(quoting United States v.
(internal quotations and

"relief

under

Rule

60 (d)

is

reserved for the rare and exceptional case where a failure to

5

7JK

Case 8:15-cv-02787-VMC-AEP Document 607 Filed 06/23/20 Page 6 of 11 PagelD 11380

act would result in a miscarriage of justice." Jeffus, 2011
WL 2669147, at *2; see also Fox v. Brewer, 620 F.2d 177, 180
(8th

Cir.

1980)

extraordinary

(noting

relief

that

on

Rule

a

60(d)

showing

''provides
of

for

exceptional

circumstances").
As to Rule 60(d)(3),

courts have similarly found that

"only the most egregious misconduct,

such as bribery of a

judge or members of a jury, or the fabrication of evidence by
a party in which an attorney is implicated, will constitute
a fraud on the court." Galatolo v. United States, 394 F. App'x
670, 672 (11th Cir. 2010); see also Gupta v. Walt Disney World
Co., 519 F. App'x 631, 632 (11th Cir. 2013)

(movant must show

an "unconscionable plan or scheme" to improperly influence
the court's decision).
Ill. Analysis
There

are

no

extraordinary

warrant relief under Rule 60(d).

circumstances

here

that

DeBose accuses USFBOT of

suborning perjury and fabricating evidence. But "[p]erjury
and fabricated evidence do not constitute fraud upon the
court, because they 'are evils that can and should be exposed
at trial,' and '[fjraud on the court is therefore limited to
the

more

process,

egregious
.

forms

of

subversion

of

the

legal

those we cannot necessarily expect to be

6

Case 8:15-cv-02787-VMC-AEP Document 607 Filed 06/23/20 Page 7 of 11 PagelD 11381

exposed be the normal adversary process.

/ ft

Council v. Am.

Fed'n of Governmental Emps., 559 F. App'x 870, 873 (11th Cir.
2014)
a

(quoting Travelers Indemnity Co., 761 F.2d at 1552) . In

similar

vein,

the

simple

nondisclosure

of

facts

or

withholding of discovery does not establish fraud on the
court. See BDT Invs., Inc, v. Lisa, S .A. , No. 18-22005-CIV,
2019 WL 7344829, at *9 (S.D. Fla. Oct. 25, 2019)
nondisclosure of allegedly pertinent

facts

("The mere

also does

not

ordinarily rise to the level of fraud on the court."); Bryant
v. Troutman, No. 3:05-CV-162-J-20MCR, 2006 WL 1640484, at *1
(M.D. Fla. June 8, 2006)

(holding that party's averments that

their adversary lied under oath,
thwarted

their

discovery

efforts,

gave misleading answers,
and

concealed

certain

pertinent evidence did not rise to the level of fraud on the
court).
But more importantly, DeBose's allegations have already
been

considered,

multiple

weighed,

occasions.

As

and

rejected by this

explained

above,

Court

the

on

Court

consistently found that DeBose's claims were unsupported by
competent evidence. In the instant Motion, DeBose claims that
she has "new evidence." The Court's review of the deposition
transcripts and affidavits attached to the Motion, however,
reveals that these documents either were or could have been

7

%>

Case 8:15-cv-02787-VMC-AEP Document 607 Filed 06/23/20 Page 8 of 11 PagelD 11382

previously submitted to the Court,

or contain information

that is duplicative of other accusations already lodged by
DeBose earlier in the litigation.
Under such circumstances,
miscarriage of justice,
60(d).

See Council,

DeBose cannot demonstrate a

as required for relief under Rule

559 F. App'x at 873

(rejecting a Rule

60(d)(3) claim where the claimant made conclusory averments,
unsupported

by

probative

facts,

that

the

other

party

committed perjury and fabricated evidence).
Instead, the Court agrees with USFBOT that the instant
request for an independent action is an attempt to re-litigate
issues that have been, or could have been, raised by DeBose
while the litigation was active. See Travelers Indem. Co.,
761 F.2d at 1552 (explaining that a plaintiff "cannot use an
independent

action

as

a vehicle

for

issues") ; Maye v. United States, No.

the

relitigation

of

8:10-CV-2327-T-30TBM,

2010 WL 4279405, at *2 (M.D. Fla. Oct. 25,

2010)

("A party

cannot relitigate 'in the independent equitable action issues
that were open to litigation in the former action where he
had a fair opportunity to make his claim or defense in that
action.

r n

) .

For

these

reasons,

independent action must be denied.

8

DeBose's

request

for

an

Case 8:15-cv-02787-VMC-AEP Document 607 Filed 06/23/20 Page 9 of 11 PagelD 11383

Furthermore, DeBose has requested an evidentiary hearing
on her motion for an independent action.

(Doc. # 600) . For

the reasons described herein, her Motion is meritless and, as
such,

the Court will not hold an evidentiary hearing.

Cano v. Baker, 435 F.3d 1337, 1342-43 (11th Cir. 2006)

See
(the

district court did not abuse its discretion by denying request
for an evidentiary hearing where holding such a hearing would
not aid the court's analysis on a question of law).
Finally, DeBose seeks an extension of time in which-to
file an amended notice of appeal in appellate case number 1813545.

(Doc. # 603) . By way of background,

in 2018,

DeBose

appealed this Court's July 20, 2018, order denying her motion
for sanctions and its subsequent order denying her motion for
reconsideration of its July 20 order. (Doc. ## 293, 296, 316,
527) . As the Eleventh Circuit correctly pointed out, neither
of these orders were final,

appealable orders at the time

DeBose filed her notice of appeal.

(Id.). Accordingly,

Eleventh

appeal

Circuit

dismissed

the

for

lack

the
of

jurisdiction, although it noted that nothing prevented DeBose
from appealing the final judgment. (Id.).

The final judgment

in favor of USFBOT was entered on February 14, 2019.
549) .

9

(Doc. #

n

cr­

ease 8:15-cv-02787-VMC-AEP Document 607 Filed 06/23/20 Page 10 of 11 PagelD 11384

Typically,
Procedure,

the

under

Federal

Rules

of

Appellate

notices of appeal must be filed within 30 days

from entry of the judgment or order appealed from. Fed. R.
App. P. 4. A district court can extend that time if a party
files a motion within 30 days after the deadline expires and
it shows "excusable neglect or good cause." Fed. R. Civ. P.
4(a)(5).

In addition,

the time to file an appeal may be

reopened for 14 days if: (1) the moving party did not receive
notice of the entry of judgment or order appealed within 21
days after entry;

(2)

the motion is filed within 180 days

after the judgment or order is entered or within 14 days of
when the moving party received notice of the entry; and (3)
no party would be prejudiced. Fed. R. App. P. 4(a)(6). Even
if all three prongs are met, however, a district court retains
the

discretion

to

deny

Plantation Police Dep't,

a

motion

to

reopen.

733 F. App'x 991,

994

Watkins

v.

(11th Cir.

2018) .
DeBose did not file her motion within 30 days of entry
of the judgment here, nor 30 days after that time expired.
Moreover, DeBose had the opportunity to appeal these orders
within her plenary appeal, but she did not do so. Nor can
DeBose plausibly allege that she did not receive notice of
the orders she seeks to appeal or the final judgment. What's

10

Case 8:15-cv-02787-VMC-AEP Document 607 Filed 06/23/20 Page 11 of 11 PagelD 11385

more, Rule 4(a)(6) does not provide DeBose relief because the
final judgment against USFBOT was entered more than 180 days
ago. In short, the Federal Rules of Appellate Procedure do
not allow this Court to reopen or extend the time for DeBose
to file the requested amended notice of appeal.
Accordingly, it is now
ORDERED, ADJUDGED, and DECREED:
(1)

Plaintiff Angela DeBose's Motion for Independent Action
for Relief from Judgment to Remedy Fraud on the Court
(Doc. # 588) is DENIED.

(2)

DeBose's Motion for an Evidentiary Hearing (Doc. # 600)
is DENIED.

(3)

DuBose's Motion for Extension of Time to File a Second
Amended Appeal (Doc. # 603) is DENIED.
DONE and ORDERED in Chambers, in Tampa, Florida, this

23rd day of June, 2020.

VIRGINIA M. HERNANDEZ*COVINGTON
UNITED STATES DISTRICT JUDGE

11

A'? 35^

Case 8:15-cv-02787-VMC-AEP Document 611 Filed 07/10/20 Page 1 of 5 PagelD 11405

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
ANGELA DEBOSE,
Plaintiff,
v.

Case No. 8:15-CV-2787-T-33AEP

UNIVERSITY OF SOUTH FLORIDA
BOARD OF TRUSTEES, et al..
Defendants.

ORDER
This matter comes before the Court upon consideration of
pro se Plaintiff Angela DeBose's Motion for Reconsideration
of its prior Orders denying various motions filed by DeBose.
(Doc.

# 609).

For the reasons that follow,

the Motion is

denied.
I.

Background
After the Eleventh Circuit

affirming

this

Court's

grant

issued a written opinion
of

summary

judgment

in

Defendants' favor on certain claims, affirming this Court's
entry of judgment as a matter of law in favor of Defendant
University of South Florida Board of Trustees ("USFBOT"), and
affirming

this

Court's

denial

of

DeBose's

request

for

attorneys' fees and costs, (Doc. # 587), DeBose filed a motion
1

3^

Case 8:15-cv-02787-VMC-AEP Document 611 Filed 07/10/20 Page 2 of 5 PagelD 11406

for independent action for relief pursuant to Federal Rule of
Civil Procedure 60(d).

(Doc. # 588). DeBose also filed, in

short succession, a motion for the recusal or reassignment of
the magistrate judge in this matter, a motion for evidentiary
hearing, and a motion for extension of time to file an amended
notice of appeal.

(Doc. ## 596, 600, 603).

On June 23, 2020, this Court entered an Order denying
DeBose's motion for independent action and also denying her
motions

for an evidentiary hearing and leave to

amended notice of appeal.

file

an

(Doc. # 607). This Court explained

that DeBose had failed to meet the high standard required to
grant

Rule

60(d)

motions

because

she

merely

sought

to

relitigate matters already considered and rejected by this
Court in the years-long litigation leading up to the motion.
(Id. ) .

On

June

24,

2020,

United

States

Magistrate

Judge

Porcelli, having had the motion for recusal referred to his
chambers, denied the motion for reassignment or recusal as
moot.

(Doc. # 608). On June 26, 2020, DeBose filed a motion

for reconsideration of this Court's Orders of June 23 and 24,
2020.

(Doc. # 609).
USFBOT has filed a response in opposition (Doc. # 610),

and the Motion is ripe for review.

2

3V

Case 8:15-cv-02787-VMC-AEP Document 611 Filed 07/10/20 Page 3 of 5 PagelD 11407

II.

Legal Standard
"Federal Rules of Civil Procedure 59(e)

and 60 govern

motions

for reconsideration." Beach Terrace Condo.

Inc,

Goldring Invs.,

v.

No.

8:15-cv-1117-T-33TBM,

Ass'n,
2015 WL

4548721, at *1 (M.D. Fla. July 28, 2015). "The time when the
party files the motion determines whether the motion will be
evaluated under Rule 59(e)

or Rule 60." Id.

"A Rule 59(e)

motion must be filed within 28 days after the entry of the
judgment." Id. "Motions filed after the 28-day period will be
decided under Federal Rule of Civil Procedure 60(b)." Id.
Here, the Motion was filed within 28 days of the Court's
Order, so Rule 59 applies. "The only grounds for granting a
Rule 59 motion are newly discovered evidence or manifest
errors of law or fact." Anderson v.

Fla.

Pep't of Envtl.

Prot., 567 F. App'x 679, 680 (11th Cir. 2014)(quoting Arthur
v. King, 500 F.3d 1335, 1343 (11th Cir. 2007)).
Granting relief under Rule 59(e)

is "an extraordinary

remedy to be employed sparingly in the interests of finality
and conservation of scarce judicial resources." United States
v. DeRochemont, No. 8:10-cr-287-T-24MAP, 2012 WL 13510, at *2
(M.D. Fla. Jan. 4, 2012)(citation omitted). Furthermore, "a
Rule 59(e) motion [cannot be used] to relitigate old matters,
raise argument or present evidence that could have been raised
3

3$ Gu

Case 8:15-cv-02787-VMC-AEP Document 611 Filed 07/10/20 Page 4 of 5 PagelD 11408

prior to the entry of judgment." Michael Linet, Inc, v. Vill.
of Wellington, 408 F.3d 757, 763 (11th Cir. 2005).
XXI. Analysis
While DeBose raises various points in her Motion, all of
her arguments crystallize to a single contention - that this
Court erred in denying her motion for independent action.
However, DeBose has not pointed to any new evidence in support
of her Motion. Moreover, DeBose's arguments are, essentially,
a rehash of the arguments raised in her Rule 60(d) motion.
DeBose has spent considerable time and energy over the course
of this
sanctions

litigation attempting to convince the Court that
are

in

order against

USFBOT

for

spoliation

of

evidence and various other infractions. As explained in its
prior Order,
arguments

on

this Court has considered and rejected these
multiple

occasions.

Such

arguments

are

not

permissible on a Rule 59(e) motion.
In sum, DeBose has not met her burden of demonstrating
that newly discovered evidence or manifest errors of law or
fact merit reconsideration of the Court's June 23, 2020, or
June

24,

2020,

Orders

under

Rule

reconsideration must be denied.
Accordingly, it is now
ORDERED, ADJUDGED, and DECREED:

4

59(e).

Her motion

for

Case 8:15-cv-02787-VMC-AEP Document 611 Filed 07/10/20 Page 5 of 5 PagelD 11409

Angela DeBose's Motion for Reconsideration (Doc. # 609)
is DENIED.
DONE and ORDERED in Chambers in Tampa, Florida, this 8th
day of July, 2020.

VIRGINIA M. HERNANDEZ^COVINGTON
UNITED STATES DISTRICT JUDGE

5

Additional material
from this filing is
available in the
Clerk's Office.

